                     NATIONAL RAILROAD PASSENGER CORl'OHATION

                                 OFFICE OF INSPECTOR GENERAL

                                INVESTIGATIVE CLOSING REPORT'


 TITLE: Criminal Allegation/Other - Fraud                                CASE NUMl3ER: 07-028

 DATE OF REPORT:               January 6, 2009


                                     --~
 REPORT PlllPARED BY:


 BACKGROUND:

 The Office of Inspector Genem I                                                  received information
 alleging that                                                                                may have
 submittcd lIi\l'""'CIIlIIICUlC'"1 d'DCUlllentat                                               2006 on-
 the-job injury.

 OI's investigation revealed titat                          medical note dated November 14,
 2006 allegedly preparcd lJy Dr.                                      of _        Family Care.
 Additional information obtaincd during the                            revealed that • • • •
 had submi((ed to Amtrak and the Railrond                        ("MS") fraudulent medical
 documentation in the fonn of               Doctor's Statements (3) and Stateinen! of Sickness
 (1) fmm DecembCl' 20,                      2006. 'Medical documentation                to this
 allegation wns obtaiued

  [As information,              hnd been employed by Amtrak since April 21, 1997. Dased on
  doculllentation                      worked continuously until July 21 2000. Thereafter, • • •
•     was alit all numerous leaves of nbsence. )

SUMMARY OF INVESTIGATION:

1.       or      Agents mel' with ~~-:===~~~~,
                ; regarding the allcgation.
                                                                     •••••••••.
                                                        stated that on November 12, 2006, _
  allcgedly il\jured herself while 011 th.job. Pursunllt to procedure, !lIe huured cmployco is rcquired
  to report the ;,uury to his/her direct supervisor. III                     case, her direct supervisor
  [aboard the train where tho injulY allegedly occurred) was                I
 In turn,            is required to fill out all NIU'C 260 Oil-the-Job InjUl'y Report aild to report tho
         to management. According to the information that                     obtained, it appemed that
           filled out the appropriate forms, ,bnt neglected to turn tho NRPC 260 ill afier the
'complction of his _               train nm . _       then went out on his rest days, "nd s~ver,,1 more
 days passed. In the interim, management loamed that_was out on nil on-the-job iujury
 after.               Ibiled to report for duty. Managemeut made inquiries aud discovered that "u
 hUury had occurred. Upon_'s return to work, he submitted the NRPG 260 documenting
 the November 12,2006 i1UlII'Y.


                                                   , I
·.

                              , stated that pursnant to procednre, management contacted       ~• • • •
                                                                                      Amtrak's
      medical management company, to advise MCMC about the huury and provide the NIU'C 260.

              On November 17, 2006,                   came in and lllet with • • • •
                                                   ~~=;'im.I(~I/OI'
      documents pertaining to the hUnry. At the timo,
                                                                      _
                                                                      provided
                                                                                filled out cel1ain Amtrak

      date<\ November 14, 2006 1;-0111 DI'. . . . .regarding his trcatment of her              iIUIUY·

                              not recnll whether she requested the medical documentation from • • •
        whell
      01'                 forwarded it prior, but protocol dictates that management forward all medical
      doculllentation to the Claims Department.

              " Upon receipt of tho November 14,2006 mcdieal note,         forwarded it t o _ In
     tUl'll, _contacted the medical provider [Dr. _           to provide information/),rocedures for
     sUbmittiug claims uudel' FELA, At that time,_requested                s niedicalnotes lind work
     restrictions for • • • •

               On Janumy 5, 2007,             received a faxed copy of the November 14, 2006 medical
      note that she had sent to the doctol'. On the bolt om of the note,            had written that the
      signature on the "Staff Physician" line on the medical note WaS not his signature, 0 1 ' . _
      fnrther wrote, "1 have never personally seen this person. .. ,was seen by"anothel' physician in our
     'practico only once lind thnt WaS 011 Janumy 14,2002,"

              When_received Dr, _ ' s              faXe(dl~nlo~teii'ls~hlelnlo~li~ti~e~d~::~~Iln~turn, • • •
     notified • • • • • • • • •                          '-                                   assigned to
                                                                 out on medical leave of absence on an
     illness llIu'elatcd to ller on-the-job injury. According to                       never returned to
     \York following the November 12, 2006 on-the-job ilUIIlY.            also indicated thlaa~t:;~~
     had been unresponsive to ullelllpts by Claims personnel                 management I             and
     MCMC                to have arl independent medical oxaminat'              advised or that _
     _ also failed to sholV lip for a Febrnary 7, 2007 scheduled lIledical examination.

     2,      or Agents telephonically contacted_regarding the allegation.
             _        advised Agents that in January 2005,                                    was Ihe
     assigned Amtrak _ , For a Iwo-weck period,
     cases she was handling for Amtrak; one of which lVas a case regarding                  on-the-job
     iiUlllY. S(lbsc~, _                was reassigned to another account 'and         assumed total
     responsibility . _      adviscd or that although she was not involved in             s case rrom
     the onset, she \Vas ramiliar with the cireuillstances SlllTOllllding i 's situation,
     Based on _ ' s revielv o f _ ' s initial case mauagement, MCMC took the following
     steJls:                                                                                        '




                                                     2
..
               o 1/3/07 - MCMC forwarded a fax to 01'. _advising him that MCMC had
                 an open claim, provided 01'. _        with information about FELA allCr
                 requesting medical documentation regarding                 's restrictions.
                 According to _ , this is standard operating procedure for MCMC.

                  Notations which _made in the filo indicate that MClvlC was IIdviscd by
                  01'. _ ' s offico staLT that their computers were down and thus, they wero
                  unable to access any information regarding    J

               o 114/07 - 01'. _       's office advised MCMC that i"• • • was last seen in
                 their office in 2002.

               a 115107 - MCMC received (probably from Amtrak) copy of 11114/07 doctor's
                  note allegedly signed by 01'. _    On the same day, MCMC faxed the note
                  to.D.1"._ for follow-up. MCMC received written informntion from Dr.
                 •        confirming that    I    WIIS not scen in his omce since 2002.



                 _'s
               o 3/22/07 - _         officially takes over             's file. Shu has limited
                 medical providcr information and billing inlbrmatioll. _         contacted 01'.
                          office and received the sam. information indicated in the me. 01'.
                        has nevcl' trcatcd
                              officc Was in 2002.
                                                 ;     and the last time            vas seen in


                 On the same day,_ tA"''''''''          _III!I•• and len a message, to no avail.
                 • • • then contactcd _ • •                          mcdical providcl'.   _!!II••
                 advised_ that tho last time                         seen was 11117/06 and had no
                 future appointments.




                 with Amtrak representatives
                • •11, Amtrak determined that
     3.    OJ Agents met with 01'. _regarding the allegation. Dr. _was shown copies of
     documcnts marked as Exhibits A & B [see atiached copies]. Dr. _ stated as lbllows:

                I-Ie did not provido treatment to           on November 14,2006, or at any othcr timc:
     He did not prepare (nor WIIS it prepared on his behalO the medical note dated November 14,2006,
     nOI' is it his signature on the medical note in question. Dr. _stated that the note in question
     is not the disability form that he uses, but rather a combination of his "Missed "Appointment
     Notilieation" forlll (Exhibit C) and his "Disability" forlll (Exhiuit D).I 01'. _  indicated that
     it was possible that he was not in town on Novemuel' 14, 2006 bec;lIIse he spends about 70% of
     his timo at tho_locations.

             To Agc"nts' questions, 01'. _      stated thllt no one in his office has authoi'izntion to sign
     his name. Whilo ho indic~tcd that he Illight, 01\ occasion, have his assistant fill in the disability
     dotes once he decides how long tho patient should uc out of work, he has never allowed, over the

(    1 In addition to providing Agents with (markcd through) Exhibits C and D, Dr. _               provided
     Agents Wit!1 a copy of his letterhead, See Exhiuit E.


                                                        3
..
       course of his practice, anyono to sign his nallle or signature on disability forins or any other
       Illedical forlll involving a patient. Dr. _showed Agents his signature. Dr.                 further
       stated that when he started his practice, he was 'determined not to become a "sick slip" doctor, a
       doctor that wonld give ant disability slips at a patient's request, rather than based on the ailment.
       Dl·. _       informed Agents that ho has adhered to that )'hilosophy by ensnring that each patient
       who reqnires a medical disability notice be scen by him and, following examination and              ,
     , discnssion (with the patien!), a determination is made to determine the best course of action for
       the patient.

                  D.,. _     advised that he received n copy' of Exhibit A from someone. He conld not
         identifY whom he received it from. At that time, Dr.              had his staff conduct a thorough
         computer and/or fila search to ascertain whether                   had been scen in his office on
         November 14, 2006. , Dr. _         advised that the search revealed that _               had not been
         treated by him or any oftlhe other physicians in his practice on November 14,2006. However, on
         aile occasion only,              had been treated by one of his collcagues on Jannary 14, 2002,
         Once Dr. _obtained this information he indicated that he persoually wrote the notation on
         the bottom ofExl,ibit B stating snch. Dr. iiIiiiiiIconfirmed that this was, in fact, his handwritiug.

         4.      The or made several attempts to contact                at her residcncc, to no avail. Agents
         then contacted             '8   supervisor, _ , to request flssistance in scheduli llg an interview
      with              . During the course of that conversation, _advised Agents that
      had not reful'lled to work. When asked whether her absence was relatcd to her on-the-job injury,
     1!!I•• responded negatively, stating that she had recentiy been advised by Amtrak's Medical
      Depal1ment that it had received medical documentation indicating that              was going to
      be out on medical leave until September 2007. ,

     5.       or Agents contacted Amtrak's Medical Depa.iment and requested the medical
     doc\IIilentation in question. Upon receipt of the medical documentation, it was revealed that
     _             had submitted a Statement of Disability dated December 14, 2006 and flIl
     accompanying lctter allcgedly signed by Dr .• • • • • • • • • • •

     6.         or Agents contacted Dr. • • • regarding the allegation.
                Inasmuch as Dr           name and signature appeared on documentation submitted by
     _ , or asked Dr.                  IwllOtlllOrhe signed (or had signed on his behaH) two documents
     attached hcrcin as Exhibits1 and 2.

           , With regard to Exhibit I dated Nov~l11ber 14,2000, Dr.              statcd that the letterhead
     was genuine and in uso at tliis office during the time pcriod in question. Dr,                  fmther
     indicated that the first two sentences on the November 14,2000 letter were his, Although he did
     not provide specifics with regard to deviations from his orlginal 'lcttcr, he did advise Agents that
     changes (0 the letter he prepared began at thc third sentence. Dr.            li.rther advised Agents
     that the last four paragraphs, which constitute the body of the letter, were not prepared by him or
     on his behalf. Additionnlly, Dr. _         stated that tho signatmo on tho bot10111 of the letter was
     not his signature.

             With rcgard to Exhibit 2 (2-pages) dated December 14,2006, Dr.
     updated his office tIles evelY two years and "had no record of this document                 "

     ? Information obtained by the Ola revealed that _            faxed the 11114/06 notc to D,·._on
     January 5, 2007.


                                                          4
..   ,




                  Dr._was able to allthcnticate the legitimacy of the letters he prepared        01'   that were
          prepnred on his behalf because he mainlains copies of all of his dictations.

                  Dr. _          inquired whether the    or   had subpoena authority.     Agents respOl1<led
          amrmativcl~stated that he was willing to cooperate with the or, but did not wunt to
          vip late any HIPPA \'Illes, "egulatiolls 01' laws. D,·. _   further stated that he would be willing
          to meet with Agents aIHI provide !lily information required with his attomey present. Agents laid
          Dr. _ t h a t they would confer with or counsel regarding additional questions for him.

                  Agent; contacted Dr. _       at a later date and informed him that we had prepared and
          mailed a subpoena [July 19, 2007, Subpoena 07·11) to his attention for his attomey's review.

         7.       Throughout Ihe COlll'se of the or's investigation, Agenls had bcen in conlact with
         _ r e g a l ' d i n g documentation t h a t _ h a d submitted to the RRB regarding her
         Amlrnk leaves of absence for the time periods in qnestion.                 advised Agenls that
                       had submitted claims for CVs 2000 and 2005.                          to    or
                                                                                                  Agents
              lIUI'"I1,ell!> [Supplemental      . Statement                              (I)). A review
         of the documents revealed that a Dr.                                     of _Family Care
         had allegedly signed the forms. Agents advised             that they would contact Dr. • • • •
         and vcrity the authenticity of the documents.

          8.      or Agents met with D,·. _regarding tho allegation.
         or Agents asked Dr.        if he had prepared and signed four different forms [3 Supplemental
 (       Doctor's Statcments nnd I Application for Sickness Benefits], on behalf of               The
         documents in question (marked as Exhibits I - 4) were obtained fi'om the lUill/OlG. Dr.
         _responded as follows:

         Exhibit I "Sum)lementnl Doctor's Statement"

         Dr. _         advised Agents that he had never seen the document marked as /I I and had not
         prepared this MB Supplemental Doctor's Statement.

         Exhibit 2 "SUIll)lemcntnl Doctor's Stalement"

         Dr.           advised Agents that ho had never seon Ihe document mAl'ked as /12 and had not
                            Supplemental Dector's Statement.

         Exhibit 3 "Supplemental Doctor's Statement"

         Dr.           advised 'Agents that he had ncver seen the document marked as 113 and had not
         prepared this Rlill Supplemental Doctor's Statement.

         Exhibit 4 "Application of Sickness Benefits"

         D,·. _        advised Agents that he hnd never seen the document mOl'ked as 114 and had not
         prepared this Application of Sickness Benefits form.

         In addition to showing Dr.              Ex hibits I - 4, Agents showed Dr . • • • • the following
         doeulllents identified herein as 5 - 7:                                 '


                                                         5
      Exhibit 5 "Treating Physician Medical Status Report Statement of Disability"

      Dr.            advised Agents that he had never seen the document marked as liS, not' was that his
      signaturc affixed to this Treating Physician Medical Statns Report Statement ofDisabilily forlll.

      Exhibit 6 "Treating Physician Medical Status Report Statement ofDisabilitv"

      Dr.            advised Agents ·that he had never seen the document marked as 116, nOi' was that his
      signature affixed to this Treating Physician Medical Status Report Statement of Disability form.

      Exhibit 7 "Treating Physician Medical Status Report Statemenl of Disabilily~

      D,·.           advised Agents that he had never seen the document marked as 117, not' was that his
      signature affixed to this Treating Physician Medical Status Report Statemcnt of Disability forlll.

               To the Agents' query, D'rr"I=r~,stated that no one in his office has authorization to
      sign his name. According to DI'.I       , he prcpares and signs all forms pertaining to worker's
      compensation and disability claims.

      9.      On December .13, 2007,                              Special
     ~al 'Counsel                                                     with
      _                               and                         the OIGfRRB case involving
       representatives and                                                         with information regarding the
       biiaiiciikig'ii·o.u.n.d.oiif.the case, with                         inquiries as needed. Thc • • •illlIII
(    I                                accepted the case and dccided to prosecute_.

      10.    On JanuOlY 8, 2008, the writer [01                       ~.!II, along w i t h _, met
     with             to obtain information IC!landing                  continued medical leave of absence
     ("MLOA"l, to discuss All allegation                                  fhlsified documents submitted to
     both Amtrak's Medical Depntiment and
     that she had illegally obtainc<l RRB monies
     conducted at             's residence located at                        ••••••••il~was
                 Agents asked                              has been providing medical documentation to
       Amtrak's Medical Dcpmtmellt.                   responded, "No," stating that she was not awaro that
      she was required to submit medical documcntation for a pregnancy. _                      is currently
      attending             University majoring in Political Scicnce and English. \~ whether sire
      intended to retulU to Amtrak,                 responded [alluding to her pregnancy] saying that she
      doesn't know, because Amtrak is just not a "family-friendly" organization.                   aid that
      due to her [high-risk] pregnancy, she is limited to tho types of work that sho can perform. Agents
      asked if she wonld bo cntitlcd to "light duly" 1V0rk detail. _complained to Agcnts that
      this was part of her frustmtion. She claimed to Agents that she sees others offcred "light duty"
      detail, but it was not offered to her. She also intimated that some person in.a supervisOlY position
    . suggested to hcr that she should probably not attempt to rcturn to Amtrak. Sho provided no namo
      fot' that individual.



                                                        Amtrak   -I• • • •         live at this address with



                                                         6
·
.'


               When shown the forms/documents in question', _ w a s asked whether she signed
      the vArious doctors' nnlnes and/ol' providcd written diagnoses and prognoses. _
      admi!1ed signing her personal signature on certaiu documents, out could not remembel' if she
      signed the doctors' namcs and provided the diagnoses/prognoses listed therein. _ s t a t e d
      that although she could not remember [doing it], she took full respousibility for the documents
      and agreed to sign a statement attesting to having committed these acts. (See 'aUached statement)

      11.     As a result of discussions which OJ initiated between Medical Services personnel and
      _               management/supervisory persounel, a Form 2000 [Personnel Action] lVas
      prepared, effective January 16, 2008, terminating      j     's' health benefits and emliloyment
      with Amtrak for failure to provide medical documentation in support of her contimled absence.

      12.     _appeared in COIll:t for her initial appea;·ance. She was represented by a court-
      appointed attOl'l.ley, was released 011 her own recognizance, and her arraignment scheduled.

      13.     On October 2, 2008, _ p l e d guilty to one criminal count. Her sentencing was
      scheduled fo,' December 4,2008.

      14.     On December 5,                                 OJ and advised that_appeared for
      sentencing OIi Decembcl' 4, 2008.                      sentenced to three (3) years probation ancl
      ordered to pay restitution ill tho amount of $7,280;

      RECOMMENDATION~:

      The wrilel' recommends Ihat this case be closed with no furl her action warmilted pending receipt
      of additional infol'lllation.


     Supel'vjsOl':




     ·r Forms consisted of nine docnments; i.e., three ea. Supplemental Doctor's Statements (lUll
     'Forlll SI-7); I ea. Statement of Sickness (RIll Form SI-Ib); 3 ca. Treating Physical Mcdical
     Status Report - Statement of Disability (NRPC 2717); and 2 ea. lelters from trcating physicians.


                                                      7
